CAPITAL CASE
EXECUTION SCHEDULED – JULY 15, 2020
No. 20IN THE

Supreme Court of the United States
WESLEY PURKEY,
Petitioner,
v.
WARDEN OF USP TERRE HAUTE, UNITED STATES OF AMERICA,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

CERTIFICATE OF SERVICE
I, Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that, on
this 15th day of July, 2020, all parties required to be served have been served copies of
the Petition for a Writ of Certiorari in this matter by email to the address below. I also
further certify that paper copies will be submitted to the Court and served on all parties
requiring service by overnight courier on July 16, 2020, per discussion with the Clerk’s
Office.
JEFFREY B. WALL
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-00001
SupremeCtBriefs@USDOJ.gov
/s/ Alan E. Schoenfeld
ALAN E. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

